CERTIFICATE OF COMPLIANCE
Case No. 20-5904
Caption: Tarahrick Terry v. United States
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 7,336 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 19, 2021.

/JJc~~rc~
Record Press, Inc.

Sworn to before me on
February 19, 2021
JASMINE WILLIAMS
Notary Public, State of New York
No. 01WI6397949
ualified in Queens County
ssion Expires September 16, 2023

